NO.

IN THE
SUPREME COURT OF THE UNITED STATES

James Felton,
Petitioner
vs.
UNITED STATES OF AMERICA,
Respondent

ANTI-VIRUS CERTIFICATION FORM
I, Devin McLaughlin, Esq., certify that I have scanned for viruses the PDF version of
Petition James Felton's Petition for Writ of Certiorari that was submitted in this case and that no
viruses were detected.
Please print the name and the version of the anti-virus detector that you used:
Sophos Antivirus, Version 10.8.11.1
If you know, please print the version of revision and/or the anti-virus signature files:
Core Agent 2.19.6; Sophos Inercept X 2.0.22

Date: September 21, 2021

131 710.1

/s/Devin McLaughlin
Devin McLaughlin

